U.S. Department of Agriculture
 Office of Inspector General
         Audit Report




   Assessment of APHIS and FSIS
  Inspection Activities to Prevent the
   Entry of Foot and Mouth Disease
         Into the United States




                  Report No.
                  50601-0003-CH
                  July 2001
                UNITED STATES DEPARTMENT OF AGRICULTURE

                               OFFICE OF INSPECTOR GENERAL


                                   Washington D.C. 20250




DATE:        July 23, 2001

REPLY TO
ATTN OF:     50601-0003-Ch

SUBJECT:     Assessment of APHIS and FSIS Inspection Activities to Prevent the
             Entry of Foot and Mouth Disease Into the United States

TO:          Craig A. Reed
             Administrator
             Animal and Plant Health Inspection Service

             Thomas J. Billy
             Administrator
             Food Safety and Inspection Service


During the outbreaks of foot and mouth disease (FMD) in Europe and South America in
2001, the Animal and Plant Health Inspection Service (APHIS) and the Food Safety and
Inspection Service (FSIS) assured the Secretary of Agriculture and the public that their
controls at ports of entry were sufficiently stringent to protect U.S. commerce from the
entry and spread of this disease. Because we were already engaged in two separate
audits of these agencies and because the global prevalence of foot and mouth disease
posed a grave threat to the American livestock industry, we reviewed the Department’s
controls to ensure that the Nation was adequately protected against the increased
threat of an FMD outbreak from abroad.

Based on our limited review we determined the Department needed more stringent
controls to ensure that meat products entering the United States were free of FMD.
Communications between FSIS and APHIS were weak, particularly during the critical,
initial stages of this emergency situation.       For instance, a shipment of over
32,000 pounds of meat products from an FMD-restricted country arrived in the Port of
Houston and was released by APHIS to FSIS. However, this product was discovered in
a warehouse in San Antonio, Texas, 9 days after it was improperly released by APHIS.
Neither agency was aware the shipment was missing. Over one-sixth of the shipment
had to be destroyed because of the possibility that it had been exposed to FMD before
entering the United States.
Craig A. Reed, et al.                                                                    2


We also found that APHIS needed to improve its accountability over imported products
from their arrival at U.S. ports of entry through their disposition by the respective
agencies. The manual recordkeeping system employed by APHIS cannot reliably track
the status of shipments on hold at the ports, and there is currently no central automated
system to allow agency-wide access to information on such shipments. Neither we nor
APHIS could ensure that the physical inventories that we conducted at the ports actually
identified all products on hold from FMD-restricted countries. At the Port of Houston, for
instance, APHIS officers could not locate over 213,000 pounds of meat products that their
records indicated were on hold there. It required a review by APHIS’ Investigative and
Enforcement Services to determine the whereabouts of these three shipments.

We also found one instance in which APHIS approved prohibited meat products for entry
into the United States. The health certificates on the shipment clearly showed the products
had been packaged after Department restrictions went into effect. This prohibited product
could have entered U.S. commerce if it had not been identified and held by the FSIS import
inspector.

During the course of our audit, we issued three management alerts (on May 1, May 8,
and May 24, 2001) to which the agencies responded in a generally positive manner.
The agencies’ response to the official draft report is attached to this report. Overall,
APHIS and FSIS have made or are making improvements that will strengthen internal
controls over FMD inspection activities. Based on these actions, we were able to reach
management decisions on all recommendations.

BACKGROUND

APHIS has the primary responsibility to ensure that animal products do not enter the
United States if they are contaminated by diseases. FSIS is responsible for performing
reinspections of imported meat products. When meat products arrive at U.S. ports,
APHIS Plant Protection and Quarantine (PPQ) officers review shipment documentation
to determine whether the product originated in a country with animal disease
restrictions. If the products are determined to be enterable, APHIS releases the
products to FSIS for reinspection to determine the effectiveness of foreign countries’
inspection systems to ensure that only wholesome, unadulterated, and properly labeled
products enter U.S. commerce.

FSIS communicates to its field personnel at ports of entry through its Automated Import
Information System (AIIS), its e-mail network, and by facsimile. The AIIS provides the
reinspection assignment and should restrict assignments for prohibited products.
Advice on restrictions should be timely forwarded through the FSIS e-mail network.
APHIS communicates with its ports through an Animal Import Byproduct Manual, which
is issued to each PPQ officer and is accessible on the Internet. During the current FMD
emergency, APHIS has also used FMD Alerts to advise field units of new developments
such as the addition of countries to the restricted list or new inspection procedures and
requirements.
Craig A. Reed, et al.                                                                  3



To protect U.S. livestock from an outbreak of FMD, the Department prohibited meat
products from countries with FMD outbreaks from entering the United States. The
prohibitions were date specific. Products prepared for shipment before this date were
enterable, but products prepared after this date were not. APHIS procedures allowed
shipments containing both enterable and prohibited product to be sorted by production
date. This procedure was intended to accommodate so-called “mixed shipments”
en route to the United States at the time APHIS issued the change in the country’s
animal disease status. This sorting frequently occurred in an FSIS-regulated import
facility (I-House) because of space, refrigeration, and product control needs. Product
produced before the prohibition date was allowed to move routinely to be reinspected by
FSIS. Restricted product was to be held at the facility under APHIS control until it was
re-exported or destroyed.

During this emergency response situation, APHIS and FSIS officials assured the
Secretary and the public that their controls were sufficiently stringent to protect U.S.
commerce from the threat of an FMD outbreak. According to the Department’s press
release, these controls included prohibiting shipments of products from high-risk
countries; increasing personnel and surveillance at ports of entry, tightening regulatory
enforcement; and strengthening Federal, State, and industry coordination.             We
performed a review to determine whether these steps had been initiated.

OBJECTIVE

We assessed the Department’s accountability and control over meat products from
countries with FMD restrictions that were arriving at U.S. ports of entry.

SCOPE

We performed the fieldwork between April 23 and May 24, 2001. Two other separate
OIG audits of APHIS and FSIS were underway in April, but we interrupted work on
those audits to perform this review and present APHIS and FSIS with our assessment
of the effectiveness of the controls in place to stop products contaminated with FMD
from entering the United States and thereby prevent an outbreak of the disease in this
country. The conditions noted in this report have already been communicated to APHIS
and FSIS in the three management alerts mentioned above.

For this review, we visited five FSIS Inspection Houses (I-Houses) in Dundalk and
Jessup, Maryland; and Elizabeth, Woodstown, and Mullica Hills, New Jersey. Based on
the review of information in FSIS’ AIIS database, we determined that these I-Houses
traditionally reinspected a significant amount of product from countries which are
currently under FMD restrictions. We also visited the three APHIS regional offices
located at Raleigh, North Carolina; Brownsville, Texas; and Sacramento, California; and
the ports of Miami, Florida; Houston, Texas; Long Beach, California; Philadelphia,
Pennsylvania; and Detroit, Michigan.
Craig A. Reed, et al.                                                                     4



This audit was performed in accordance with generally accepted government auditing
standards.

METHODOLOGY

We assessed the controls over meat products arriving from countries with FMD
restrictions by interviewing appropriate officials, observing activities, reviewing the
agencies procedures and instructions, and examining key records, such as the FSIS
Form 9540-1, Import Inspection Application and Report, and conducting physical
inventories. We also had discussions with Customs officials concerning their Automated
Manifest System.

AUDIT RESULTS

FINDING NO. 1 - COMMUNICATION NEEDS TO BE IMPROVED BETWEEN APHIS
AND FSIS

FSIS and APHIS officials at the ports of entry were not clear on their respective roles and
responsibilities for product received from restricted countries. This occurred because, at
the time of our review, there was no centralized communication by APHIS and FSIS to
field units. Also, neither APHIS nor FSIS had issued clear procedures identifying the
separate roles of port personnel and the areas in which coordination was necessary. As a
result, there was an increased risk that prohibited product could enter U.S. commerce.
(See Findings 2, 3, and 4.)

During the week of April 23, 2001, we visited I-House No. 44 in Elizabeth, New Jersey,
to confirm FSIS’ procedures and controls for preventing products from restricted
countries from entering U.S. commerce. The FSIS inspector alerted us to almost
260,000 pounds of prohibited products stored in an unsecured area of the I-House. The
products were part of mixed shipments that were released by APHIS at the port of entry
between March 20 and April 10, 2001. These mixed shipments were accompanied by
health certificates with production dates that ranged from prior to the product restriction
date (qualifying the shipment as enterable) to on or after the restriction date (identifying
the shipment as prohibited). The FSIS inspector advised us that the product was still at
the I-House facility because it had not been presented for reinspection by the broker
(import certificates were processed directly through APHIS to the broker, who was then
responsible for presenting them to FSIS by way of the warehouse management). Also,
until April 23, 2001, the FSIS inspector had not received specific guidance about how to
handle this product.

Our discussions with FSIS and APHIS officials in New Jersey revealed confusion
regarding their respective roles and responsibilities for this product. We noted a lack of
centralized communication by APHIS/FSIS to field units on changes in country status
and inspection procedures. Each agency independently communicated with its
respective field units, resulting in a lack of coordinated effort, delays in communication,
Craig A. Reed, et al.                                                                  5


confusion in instructions, and the lack of an effective way to clarify the Department’s
expectations. For example, note in the following the lack of clarity in each agency’s
direction for sorting and processing mixed shipments.

      •   On April 17, 2001, APHIS issued guidance to its PPQ port offices to clarify
          procedures for handling mixed shipments, stating that it was allowable to
          separate enterable product from prohibited product shipped in one container,
          but that this separation of product had to be supervised by PPQ. The
          guidance stated that the need to move the product to an FSIS-approved
          facility was eliminated. APHIS guidance was also provided on shipments
          where production dates were missing from the inspection certificates: the
          importer/broker was to be given a maximum of 5 days to provide the specific
          production data, and the imported/broker was to be contacted if any shipment
          had been on hold for longer than 2 weeks.

      •   On April 23, 2001, FSIS issued guidance to its inspectors that stated for
          mixed shipments, the prohibited product was not to be refused entry by FSIS
          inspectors. The lots could be sorted by the import establishment under FSIS
          or APHIS supervision. When prohibited product was sorted, FSIS inspectors
          were to notify the local APHIS-PPQ office and provide them the details (e.g.,
          importer name, location, amount of product, etc.) and document the file.

We reported these deficiencies to APHIS and FSIS in a management alert dated May 1,
2001, based on our work in Elizabeth, New Jersey. (We also found these deficiencies
during subsequent work in I-Houses in Woodstown and Mullica Hills, New Jersey, and
Jessup, Maryland.)       In response, both agencies explained their methods of
communication. FSIS said that it communicated with its ports via e-mail and faxes;
APHIS said it communicated through a product manual that was accessible on the
Internet. However, we found that these methods of communication (fax, e-mail, and
Internet) were not always available at the ports. For example, at two I-Houses we
visited, FSIS inspectors had access to only one telephone line. The inspectors did not
have access to FSIS’ e-mail system to obtain instructions or restrictions while the AIIS
was being accessed for an inspection assignment.

Both FSIS and APHIS noted that when APHIS develops its operating procedures, it
clears those procedures through FSIS prior to field implementation. However, there is
no manual or directive that ties FSIS and APHIS procedures into a single document.

We concluded that FSIS and APHIS need to develop joint procedures that specifically
identify the roles and responsibilities of each agency at U.S. ports. We also concluded
that each agency needs to coordinate its communications to field units so field
inspectors are up to date on all new instructions or restrictions. Timely notification of
these instructions and restrictions is essential since product quickly moves out of the
I-House into U.S. commerce.
Craig A. Reed, et al.                                                                  6



Recommendation No. 1:

Centralize communication/coordination with FSIS/APHIS field units on country
restrictions and inspection procedures.

Agencies’ Response:

The agencies agreed that operational procedures for handling meat and poultry
involving both FSIS and APHIS are not well documented. Both FSIS and APHIS will
develop a Memorandum of Understanding (MOU) to enhance communications in
situations involving animal disease restrictions. The MOU will be completed by
December 1, 2001.

OIG Position:

We accept management decision on this recommendation. We believe that the MOU
may help to address some future situation, as long as it answers the need for
coordination and centralizes communication at the field level in an emergency situation
like the recent one involving FMD.

Recommendation No. 2:

Develop a joint APHIS/FSIS procedure that specifically identifies the roles and
responsibilities of personnel at the U.S. ports of entry regarding products received from
restricted countries. This procedure should detail the required coordination and
followup required by the respective APHIS/FSIS field units.

Agencies’ Response:

In the response to the official draft report, the agencies agreed to amend their existing
Memorandum of Understanding to specifically define the roles and responsibilities of
both agencies at the U.S. ports of entry regarding products received from restricted
countries. The amended MOU will address the two agencies’ respective functional
responsibilities and requirements for coordination at Headquarters and in the field. The
MOU is scheduled to be completed in December 2001, and instructions will be provided
to field personnel by the end of February 2002.

OIG Position:

We accept the agencies’ management decision.

Recommendation No. 3:

Coordinate the disposition of the prohibited product at the I-House in Elizabeth, New
Jersey.
Craig A. Reed, et al.                                                                 7


Agencies’ Response:

Both APHIS and FSIS concurred with our finding and recommendation. The prohibited
product was destroyed or exported.

OIG Position:

We accept the agencies’ management decision.

FINDING NO. 2 - THE DEPARTMENT NEEDS IMPROVED ACCOUNTABILITY AND
CONTROL OVER IMPORTED PRODUCT FROM COUNTRIES WITH FMD
RESTRICTIONS

Neither APHIS nor FSIS had adequate accountability and control of product from
countries with FMD restrictions. This primarily occurred because APHIS did not
independently notify FSIS about product entering the United States and could not
readily track shipments released to FSIS. APHIS officials acknowledged that their
agency was responsible for the control of the product and agreed that there were
inadequate controls to ensure proper disposition of the product. Under these
circumstances, prohibited product could enter U.S. commerce without either FSIS’ or
APHIS’ knowledge. In one case, 32,000 pounds of imported sheep, beef, and hog
casings en route from APHIS to FSIS at Houston were transported instead to a
commercial warehouse in San Antonio. After the product was discovered by the broker,
FSIS and APHIS inspected the shipment and destroyed over one-sixth of it as
unallowable for entry.

We found that neither APHIS nor FSIS had adequate control over product that arrived at
ports of entry and was placed on hold. Warehouse management retained control of
shipments that were stored in I-Houses, usually in unsecured areas, until they were
presented to FSIS for reinspection. Although procedures varied from port to port, we
found that at some ports APHIS-PPQ officers did not independently notify FSIS of
product entering the United States but rather processed the FSIS Form 9540-1, Import
Application and Report, directly with the brokers. At two ports, the warehouses
provided the FSIS Form 9540-1 to the FSIS inspectors after receiving them from the
brokers, when product was to be reinspected. Until the warehouses presented
shipments for reinspection, the FSIS inspectors did not know they were coming. Under
these circumstances, product released by APHIS can potentially be diverted, and
control over it depends on the relationship and coordination between the warehouse
and FSIS.

We noted this condition at I-Houses in New Jersey and Maryland. The FSIS inspector
did not have a record (FSIS Form 9540-1) of product released to the I-House by APHIS
until it was provided by the warehouse. At the I-Houses, we found mixed shipments in
unsecured areas that had been released by APHIS-PPQ to the warehouse. According
to APHIS and FSIS instructions, (dated April 17, 2001, and April 23, 2001, respectively)
these shipments could be sorted so that only enterable product was presented to FSIS
Craig A. Reed, et al.                                                                   8


for reinspection and later moved into U.S. commerce. We found that the remaining
(prohibited) portions of the shipments were being held at the I-Houses in unsecured
storage and could have easily been mixed with enterable product.

We found other instances in which product had not been properly accounted for and
controlled, as noted below.

      •   During the week of April 30, 2001, we visited FSIS I-Houses in Woodstown
          and Mullica Hills, New Jersey. We found conditions similar to those in
          Elizabeth, New Jersey. (See Finding 1.)           Sixteen shipments totaling
          341,798 pounds of prohibited product from Argentina and Uruguay that
          arrived at the ports of entry between March 13 and April 27, 2001, were in
          unsecured storage at the I-Houses. The FSIS inspector in Woodstown, New
          Jersey, contacted local APHIS officials in late March to attempt to determine
          how the product should be disposed of. However, an APHIS-PPQ officer did
          not visit the I-House until April 25, almost a month later, to conduct a joint
          inventory of the prohibited product with the FSIS inspector. As of May 4, the
          Woodstown shipments were still in storage at the I-House. The FSIS
          inspector informed us that disposition of the product would be resolved by the
          warehouse, the broker, APHIS, and Customs.

      •   At the request of the FSIS inspectors in Woodstown and Mullica Hills, New
          Jersey, we visited the I-House in Mullica Hills to review the circumstances
          surrounding the disposal of two shipments totaling about 15,400 pounds of
          beef from Argentina that arrived at the I-House in mid-March. We interviewed
          the warehouse owner who expressed frustration in his attempts to find out
          how this product should be disposed of. The owner stated he did not want
          this product at his warehouse and made numerous attempts to contact APHIS
          officials, to no avail. Therefore, he made the decision in consultation with the
          broker to ship the product back to Argentina on a vessel that would soon
          arrive at the port of entry. The FSIS official discovered the product being
          loaded on a truck and stopped the shipment until the proper APHIS clearance
          could be obtained. A local APHIS veterinary officer worked quickly with the
          FSIS inspector to process the required paperwork so that the product could
          be shipped back. This situation, while controlled by the local FSIS inspector,
          demonstrates the potential that product could be easily diverted by
          unscrupulous individuals if not properly controlled by the Department.

      •   A mixed shipment totaling over 32,000 pounds of sheep, beef, and hog
          (sausage) casings from Finland, an FMD country, were removed from the
          Port of Houston and transported to San Antonio, Texas, without authorization.
          This shipment arrived in Houston on March 12, 2001, and was approved by
          APHIS for transport to the FSIS I-House on April 23. When APHIS approved
          the transfer of the shipment to the I-House, they improperly released the hold
          on the shipment in violation of agency procedures. Because of a lack of
          coordination between APHIS and FSIS, neither agency was aware that the
Craig A. Reed, et al.                                                                  9


          product was instead sent to a commercial warehouse in San Antonio. It was
          not until May 2, 2001, that the broker discovered the error and informed
          APHIS of the improper transport. APHIS directed the product be returned to
          Houston. This was subsequently done, and 5,580 pounds out of the 32,000
          in the original shipment were determined to be non-enterable and were
          incinerated. However, because APHIS depends on the brokers to inform
          FSIS of product on its way to the I-Houses, no controls existed to prevent this
          shipment from entering commerce within the United States after it left the port
          facility in Houston.

We notified the agencies of these deficiencies in three management alerts issued on
May 1, May 8, and May 24, 2001. Generally both APHIS and FSIS concurred with our
findings and took corrective actions in accordance with the recommendations we had
made. These actions are noted below.

Recommendation No. 4:

Discontinue the policy of allowing shipments containing both prohibited and enterable
product to move from the port to I-House for sorting.

Agencies’ Response:

Both APHIS and FSIS concurred there was a need to tighten this procedure. On May 7,
2001, APHIS issued an FMD-Notice which banned the entry of all mixed shipments
from FMD-restricted countries effective June 30, 2001.

OIG Position:

We accept management decision on this recommendation.

Recommendation No. 5:

Develop a system that requires the APHIS-PPQ officers to independently transmit a
copy of the FSIS Form 9540-1, Import Inspection and Application Report, to the
applicable FSIS inspector.

Agencies’ Response:

In their response to the official draft report, the agencies stated that they expect to
complete the system for communicating Form FSIS 9540-1 to applicable FSIS Inspectors
by December 2001. They also stated that FSIS would report all pink juice meat testing
results to APHIS since all cooked meats are moving under a cautionary hold.
Craig A. Reed, et al.                                                                 10


OIG Position:

We accept the agencies’ management decision.

Recommendation No. 6:

Establish a timeframe for disposing of prohibited products disclosed by the planned
inventory of shipments being held at the ports.

Agencies’ Response:

The inventory of prohibited product has been completed. The results of the inventory
and product disposition were included in the agencies’ June 25, 2001, summary report
to the Secretary’s office and OIG.

OIG Position:

We accept the agencies’ management decision.

Recommendation No. 7:

Develop controls to identify product that has not been presented for reinspection within
a specified timeframe.

Agencies’ Response:

In the response to the official draft report, the agencies stated that they would develop
requirements and controls for identifying product that has not been presented for
reinspection. These controls will incorporate a requirement that APHIS be notified when
product has been improperly moved. This process should be completed by March
2002. A decision will also be rendered by June 2002 on whether statutory changes are
necessary in the areas of bonding and redelivery authority for APHIS. Additionally,
APHIS is initiating review functions to ensure that prohibited meat does not enter the
country.

OIG Position:

We accept the agencies’ management decision.
Craig A. Reed, et al.                                                                 11


FINDING NO. 3 - APHIS’ SYSTEM TO TRACK PRODUCTS ON HOLD AT EACH
PORT DID NOT RELIABLY ACCOUNT FOR THOSE PRODUCTS

APHIS did not adequately keep track of imports that were on hold and awaiting release
from ports. This occurred because port personnel kept manual records of imports; there
was no central automated system that controlled imports entering U.S. ports of entry
through to the point of disposition, and there was no reconciliation performed between
APHIS and FSIS records to ensure that all shipments recorded as having been sent to
FSIS I-Houses were identified. As a result, APHIS could not be certain of accurately
identifying the amount, type, or location of product on hold at the I-Houses or port
container yards; for example, APHIS officials at the port of Houston could not account
for 3 of the 14 shipments that their records showed to be on hold as of May 7, 2001.

We conducted physical inventories of product on hold by APHIS at the container yards
of the ports we visited, as well as product transported to the FSIS I-Houses for sorting,
reinspection, or retention. However, we were unable to ensure that all such shipments
were included in the inventories because neither FSIS nor APHIS maintained an
adequate system of controls or records to track shipments through to final disposition of
the prohibited product. To identify these shipments, APHIS port officials had to conduct
a search of manual records. APHIS officials could not demonstrate that they had
adequate controls to track and follow up on the disposition of these shipments, and at
some ports FSIS would only know that product had been released to them if the broker
or warehouse told them.

Officials at the APHIS regional offices stated that there was no centralized
recordkeeping system which would allow them to quickly collect information on the
number, type, and location of shipments on hold from FMD countries other than to
contact the director of each individual port. We, therefore, asked APHIS officials at
each port for a listing of products they had on hold with emphasis on those products that
were held due to FMD restrictions. Upon our arrival at the ports, we attempted to verify
the information provided to us and found that the ports could not readily identify all
shipments placed on hold during a given time period or whether shipments sent to FSIS
I-Houses while still on APHIS hold were presented for reinspection or tracked to
disposition.

For instance, APHIS officials at Houston’s maritime port informed us that they had
14 shipments on hold as of the date of our visit, based on a manual review of their
records. However, in our preliminary reconciliation, three of these could not be located
by the auditors or APHIS officers at either the container yard or the FSIS I-House. The
three shipments were meat products totaling 213,385 pounds. Some of these
shipments had been on hold since November 2000, prior to the FMD crisis. Such
delays can increase the chances of product being improperly moved into commerce. In
addition, while at the FSIS I-House, we found another shipment on hold that had not
been identified by APHIS in its own search.
Craig A. Reed, et al.                                                                  12


As a result of our review, APHIS-PPQ port officials brought in officers from the
Investigations and Enforcement Services (IES), to determine the status of the missing
shipments. IES officials advised us that two of the three shipments, which had initially
arrived at the port in November 2000, were immediately re-exported.

The third missing shipment, 48,525 pounds of meat product (pre-FMD period) from
Uruguay, was determined by IES to have been transported from Houston to
Los Angeles. IES officials told us that although the shipment was still officially on hold
status in Customs’ database, the shipping line informed the Houston Port Authority that
the hold had been released. According to Customs officials at Houston, unauthorized
removals can happen without the knowledge of either APHIS or Customs because the
Houston Port Authority depends on the shipping line to inform it when a shipment has
received all necessary clearances and may be removed from the port. APHIS needs to
assess this control weakness and its impact on APHIS inspection activities. IES is
continuing to perform its review to determine how this occurred.

Although it should be possible to trace individual shipments manually, if needed, the
sheer volume of manual records and the lack of an automated database would make it
impractical to perform tasks such as tracking the status and disposition of all shipments
from a country with an identified FMD problem over a period of weeks. Although USDA
modified its import restrictions to ban all mixed shipments from countries having FMD,
including shipments en route to the United States at the time the ban was declared,
mixed shipments from these countries have already been admitted into the United
States in significant numbers and may pose a threat of spreading the disease if not
properly accounted for and controlled.

These conditions demonstrate the need for APHIS to improve its recordkeeping system
to track product being held at the ports. In its response, APHIS officials stated that the
agency had requested funding from the Department to develop and implement an
automated tracking system that PPQ officers can reference at ports of entry to analyze
cargo manifests directly from the Customs database. Such a system would, according
to APHIS officials, have the capability of flagging problem areas and items of interest to
PPQ.

We reported these deficiencies in our three management alerts issued on May 1,
May 8, and May 24, 2001. Generally both APHIS and FSIS concurred with our finding
and took corrective actions in accordance with the recommendations we had made.
These actions are noted below.

Recommendation No. 8:

Perform an assessment of the controls in place to prevent shipments listed as being on
hold in Customs’ database from exiting ports of entry without proper authorization.
Coordinate with Customs as necessary.
Craig A. Reed, et al.                                                                13


Agencies’ Response:

APHIS agreed to assess how this problem occurred and to complete its assessment by
the end of the fiscal year. It also agreed to adopt corrective measures to ensure the
situation is not repeated.

OIG Position:

We accept management decision on this recommendation.

Recommendation No. 9:

Develop an automated system that provides control and accountability of imports
entering U.S. ports of entry through disposition by the respective agencies.

Agencies’ Response:

APHIS and FSIS agreed that electronic transmission of information between agencies
would enhance communications. Currently, APHIS is developing its Port Information
Network Operations (PINOPS) database to track meat and animal product shipments.
PINOPS will track the shipment by bill and disposition. It is expected that PINOPS will
be fully implemented in about 1 year. Also, APHIS is working on their own system
called Automated Manifest System, which is being designed to set up rules that
automatically target shipments for holds. Full implementation of the system is
anticipated in about 2 years.

OIG Position:

We accept the agencies’ management decision.

Recommendation No. 10:

Develop controls that require followup when the broker does not provide requested
information lacking on import certificates within specified timeframes.

Agencies’ Response:

APHIS has notified PPQ personnel, brokers, and importers that if meat shipments are
not submitted for entry with the necessary meat inspection certificates, the shipment is
to be refused entry. This action was implemented effective July 1, 2001.

OIG Position:

We accept the agencies’ management decision.
Craig A. Reed, et al.                                                                 14


Recommendation No. 11:

Require all APHIS ports of entry and FSIS I-Houses to identify the amount, type, and
location of all shipments currently on hold, from countries identified as having FMD.
This effort should be coordinated between the two agencies.

Agencies’ Response:

Both APHIS and FSIS concurred with this recommendation and responded on June 25,
2001, that the inventory had been completed. All shipments recorded as having been
sent to the I-Houses have been identified.

OIG Position:

We accept the agencies’ management decision on this recommendation.

Recommendation No. 12:

Maintain an audit trail (both APHIS and FSIS) so that the assurances provided in the
report on product inventory and disposition can be independently validated by agency
compliance officials and/or OIG.

Agencies’ Response:

Both APHIS and FSIS concurred with this recommendation. PPQ will maintain records
of the inventory, surveillance, and disposition of all meats. Records will document the
release of enterable products and the destruction or return of prohibited products to the
country of origin.

OIG Position:

We accept the agencies’ management decision on this recommendation.

Recommendation No. 13:

Perform reconciliations between APHIS and FSIS records to ensure that all shipments
recorded as having been sent to FSIS I-Houses are identified as part of the inventory
process. This process should include shipments from restricted countries going back to
the beginning of the current FMD outbreak, including those no longer on hold at the
I-Houses.

Agencies’ Response:

FSIS compiled an inventory from some of the I-Houses holding products from countries
with FMD, and APHIS is continuing the inventory of the remaining I-Houses. APHIS will
investigate any discrepancies to ensure records are reconciled.
Craig A. Reed, et al.                                                              15


OIG Position:

We accept the agencies’ management decision on this recommendation.

Recommendation No. 14:

Resolve the status of the missing third shipment of meat products at the port of
Houston.

Agencies’ Response:

APHIS’ IES found that the missing third shipment had been shipped to Los Angeles but
has not yet determined the circumstances that caused this to occur. IES is continuing
its review.

OIG Position:

We accept the agencies’ management decision on this recommendation.

Recommendation No. 15:

Provide a weekly joint report to the Acting Under Secretary and the Inspector General
on the status and disposition of prohibited product from restricted countries.

Agencies’ Response:

APHIS and FSIS submitted an initial summary report on June 25, 2001, and agreed to
provide semiannual updates until June 2002, unless results warrant a longer reporting
period. A memo of explanation for terminating this reporting will be provided to OIG.

OIG Position:

We accept the agencies’ management decision.

FINDING NO. 4 - NOT ALL RESTRICTED PRODUCTS HAVE BEEN REFUSED ENTRY

APHIS approved prohibited meat products for entry into the United States. This
occurred because APHIS personnel did not thoroughly review import certificates that
showed restricted dates. As a result, this prohibited product could have entered U.S.
commerce if it had not been identified and held by the FSIS import inspector.

APHIS personnel at Baltimore, Maryland, allowed eight shipments of pork loin ribs from
Denmark totaling 122,670 pounds to be moved on hold to the FSIS I-House in Jessup,
Maryland, even though the product in these shipments was entirely produced after the
restriction date. This product should have been refused entry because the health
certificates for these shipments clearly showed the product was produced from
Craig A. Reed, et al.                                                               16


February 21, 2001, to March 16, 2001. On March 13, 2001, APHIS instructed its
personnel to restrict pork and pork products from Denmark produced after February 19,
2001.

APHIS port personnel could not explain why this product was not refused entry as it
should have been under APHIS procedures. These shipments were processed by
APHIS between April 6 and April 19, 2001.

We notified APHIS of this condition in our management alert issued on May 24, 2001.
However, on May 25, 2001, USDA removed import restrictions on European countries
determined to be free of FMD. Meat products from these countries, which had been on
hold, were eligible to be released.

Recommendation No. 16:

Require APHIS personnel to thoroughly review the documentation associated with
shipments received from FMD-affected countries to ensure that prohibited product is
refused entry, when appropriate.

Agencies’ Response:

APHIS is examining the documentation. The results of the review will be included in the
summary report to the Under Secretary which was to be issued on June 25, 2001.

OIG Position:

We accept APHIS’ management decision.

Recommendation. No 17:

Determine whether APHIS should refuse entry on the 122,670 pounds of pork loin ribs
from Denmark at I-House No. 158.

Agencies’ Response:

APHIS has determined that the product is now releasable because the Department has
found Denmark to be FMD-free.

OIG Position:

We accept APHIS’ management decision on this recommendation.
Craig A. Reed, et al.                                                               17


CONCLUSIONS AND REQUIRED AGENCY ACTIONS:

We accept your management decisions on all recommendations. The Office of the
Chief Financial Officer (OCFO), U. S. Department of Agriculture, has responsibility for
monitoring and tracking final action for the findings and recommendations. Please note
that final action on the findings and recommendations should be completed within
1 year of each management decision. Follow your agency’s internal procedures in
forwarding final action correspondence to OCFO.

We appreciate the assistance and cooperation of your staffs during our audit.


/s/

ROGER C. VIADERO
Inspector General

-Attachment
ATTACHMENT - AGENCIES’ RESPONSE TO THE DRAFT REPORT
ATTACHMENT - AGENCIES’ RESPONSE TO THE DRAFT REPORT
ATTACHMENT - AGENCIES’ RESPONSE TO THE DRAFT REPORT
ATTACHMENT - AGENCIES’ RESPONSE TO THE DRAFT REPORT
